Audit of USAID/El Salvador’s U101-Reported
  Financial Data as of September 30, 2000



          Audit Report No. 1-519-01-003-F
                February 23, 2001




           San Salvador, El Salvador
             U.S. A GENCY FOR
             INTERNATIONAL
              DEVELOPMENT

             RIG/San Salvador


             February 26, 2001

             MEMORANDUM
             FOR:               USAID/El Salvador Director, Kenneth C. Ellis

             FROM:              RIG/San Salvador, Timothy E. Cox

             SUBJECT:           Audit of USAID/El Salvador’s U101-Reported Financial Data as of
                                September 30, 2000 (Report No. 1-519-01-003-F)

             This memorandum is our report on the subject audit. In finalizing the report, we
             considered your comments on the draft report. Your comments on the draft report
             are included in Appendix II.

             The report contains two recommendations for your action. Based on the information
             provided by the Mission, a management decision has been reached for both
             recommendations. A determination of final action for the recommendations will be
             made by the Office of Management Planning and Innovation (M/MPI/MIC) when
             planned corrective actions are completed.

             I appreciate the cooperation and courtesy extended to my staff during the audit.


Summary of   As part of a worldwide audit, the Regional Inspector General/San Salvador audited
Results      selected financial data to answer the following audit objective:

             •   Were the account balances on USAID/El Salvador’s U101 reports accurately
                 presented with respect to accruals, advances, and the 1221 reconciliation?

             USAID/El Salvador generally presented accurate information with regards to
             advances and the 1221 reconciliation; however, our sample of accrual transactions
             indicated that the Mission does not always have adequate support for accrual
             amounts and some accrual estimates were inaccurate. The report contains
             recommendations that USAID/El Salvador work with USAID/Panama and
             USAID/Mexico to establish written procedures for the accrual process and that


                                                                                                 1
                     USAID/El Salvador revise its written procedures for accruals to include the use of a
                     control sheet to show the accrual calculation and indicate the source and basis of the
                     information. (See pages 2 through 5.)

                     USAID/El Salvador expressed agreement with our recommendations and has
                     developed a plan of action to implement both recommendations. (See Appendix II.)


Background           Under the Government Management and Reform Act of 1994, USAID is required
                     to submit annual audited financial statements to the Office of Management and
                     Budget (OMB) and appropriate congressional committees. These financial
                     statements include the activities of overseas missions as reported in the year-end
                     Summaries of Budget Allowance Ledger Transactions and Reconciliation with
                     Disbursing Officer’s Accounts, also referred to as the U101 report, which is
                     generated from the Mission Accounting and Controls System (MACS).

                     This audit is part of the Office of Inspector General’s (OIG) worldwide audit of
                     USAID’s Fiscal Year 2000 financial statements. The OIG’s Financial Audit
                     Division (IG/A/FA) is leading this worldwide effort, with the assistance from the
                     OIG’s Regional Inspectors General. IG/A/FA selected 10 overseas missions to be
                     included in the audit, including USAID/El Salvador. USAID/El Salvador serves as
                     the accounting station for USAID/Mexico and USAID/Panama as well as some
                     activities in Costa Rica related to the Office of Foreign Disaster Assistance and
                     closeout projects from USAID/Costa Rica. Our audit included U101 data reported
                     by USAID/El Salvador for activities in these other countries.



Audit Objective As part of a worldwide audit, the Regional Inspector General/San Salvador audited
                     selected financial data to answer the following audit objective:

                     •   Were the account balances on USAID/El Salvador’s U101 reports accurately
                         presented with respect to accruals, advances, and the 1221 reconciliation?

                     Appendix I describes the audit scope and methodology.



Audit Findings       Were the account balances on USAID/El Salvador’s U101 reports accurately
                     presented with respect to accruals, advances, and the 1221 reconciliation?

                     USAID/El Salvador generally presented accurate information with regards to
                     advances and the 1221 reconciliation; however, our sample of accrual transactions
                     indicated that the Mission did not always have adequate support for accrual amounts
                     and some accrual estimates were inaccurate.




                                                                                                          2
With respect to advances, based on an examination of sample transactions as
described in Appendix I:

•   The Mission properly reported advances in the September 2000 U101 report and
    properly scheduled them for payment by the disbursing offices.

•   Recipients generally refunded interest earned on advances to USAID. 1

•   Requests for advances (Standard Forms 1034) were maintained on file and
    payment amounts were equal to the amounts reflected on the requests.

•   Financial information on the recipients’ requests for advances was consistent
    with the controller’s office advance information.

Also with respect to advances, we found that the amount of outstanding advances
over 120 days old had been significantly reduced since the time of our review of
internal controls. 2 As of October 4, 2000, outstanding advances over 120 days old
totaled $481,080 as compared to a total of $998,300 on July 21, 2000.

For the 1221 reconciliation process, we found no discrepancies in the reconciling
items reported in the September 30, 2000 U101.

With respect to accruals, based on a review of sample transactions as described in
Appendix I, we found that:

•   Quarterly accruals were recorded in the September 2000 U101 report.

•   Accruals were reversed at the beginning of the subsequent quarter.

•   Accrual amounts did not exceed the total unliquidated commitment balance.

•   When necessary, accrual amounts were adjusted for disbursements made
    subsequent to the accrual estimation.

However, as discussed in the following sections, USAID/El Salvador did not have
adequate supporting documentation for some of its accruals and accrual estimates
were not always accurate.




1
 Although we noted that one recipient has not refunded interest, the amount is not considered
material. Therefore, we are not making a recommendation related to this finding.
2
 The results of our assessment of USAID/El Salvador’s internal controls over MACS are reported
separately in the Audit Report No. 1-519-01-001-F “Audit of Certain USAID/El Salvador
Financial Operations and Management Controls,” dated January 23, 2001.


                                                                                                3
Some Accruals Were Not Accurate Or
Adequately Supported

USAID’s Automated Directive System (ADS) Section 631 requires that accrual
estimates be based on the best available information on expenditures for an
activity. As part of our audit, we reviewed supporting documentation to
determine if the accrual amounts were reasonable estimates of expenditures. We
found that, of a sample of 30 accruals, eight lacked adequate documentation to
support the amounts accrued as of September 30, 2000. These accruals were
related to USAID/Mexico and USAID/Panama projects.

ADS 631 requires the cognizant technical officer to develop accruals using
worksheets and guidance from the Mission Controller and to use an appropriate
basis for accruals. USAID/El Salvador’s Mission Operations Manual 970,
Development of Accruals, requires that the project manager determine the amount
for the accrued expenditures and encourages the use of the MACS Report P09,
Accrual Worksheet. It further requires the responsible financial analyst to review
the reasonableness of the accrual. However, the USAID/El Salvador Mission
Operations Manual does not apply to USAID/Panama or USAID/Mexico and
neither of those missions had written procedures related to accruals. As a result,
estimates for five USAID/Mexico accruals and three USAID/Panama accruals
were not adequately documented and we could not determine if their accrual
amounts were reasonable.

In addition, six of the 30 accruals in our sample were miscalculated or incorrect as
described below:

•   Two accruals were incorrect due to errors in their calculation, resulting in an
    over-accrual of $25,000 and an under-accrual of $39,125. The under-accrual
    occurred because the cognizant technical officer did not properly review the
    information from the grantee in order to properly estimate accrued
    expenditures. For the over-accrual, the amount accrued was $25,000 more
    than the documentation provided by the grantee.

•   One $214,766 accrual was accrued twice under two different earmark control
    numbers. The double entry of this accrual occurred because the cognizant
    technical officer did not exercise sufficient care in calculating accruals. In
    addition, the accountant in USAID/El Salvador and the cognizant technical
    officer in USAID/Mexico were not able to meet to discuss accruals. The
    accountant relied on the amount provided by the technical officer and did not
    receive any supporting documentation for the accrual amounts.

•   Three accruals were made for expired projects for which the Mission is
    awaiting a final indirect cost settlement for the activities. The accrual
    amounts for these projects were based on the remaining unliquidated
    commitment balance for the projects instead of on an estimate of the
    anticipated amount of the indirect costs. Based on previous years’ indirect


                                                                                      4
                    costs for these recipients, we estimate that these accruals were excessive by at
                    least $200,000. USAID/El Salvador’s accrual practices for projects with
                    outstanding indirect cost rates did not take into account the “best available
                    information,” as required by ADS 631, when estimating accrual amounts.

                 As a result of the six discrepancies noted above, the accruals in the sample were
                 overstated by approximately $400,000, or about 2.6 percent of the total amount of
                 the sample accruals.

                 As a result of the above, we are making the following recommendations:

                        Recommendation No. 1: We recommend the USAID/El
                        Salvador work with USAID/Panama and USAID/Mexico to
                        establish written procedures for the accrual process, to include
                        (a) the roles of the cognizant technical officer and the
                        USAID/El Salvador controller staff in the accrual process and
                        (b) the requirements for maintaining adequate documentation
                        for accruals.

                        Recommendation No. 2: We recommend that USAID/El
                        Salvador revise its written procedures for accruals to include
                        the use of a control sheet to show the accrual calculation and
                        indicate the source and basis of the information.



Management       USAID/El Salvador expressed agreement with our recommendations and has
Comments and     developed a plan of action to implement both recommendations. Therefore, a
Our Evaluation   management decision has been reached for both recommendations. USAID/El
                 Salvador’s comments were also cleared by USAID/Panama and USAID/Mexico
                 management.




                                                                                                   5
                                                                                        Appendix I



Scope and     Scope
Methodology
              The Regional Inspector General/San Salvador conducted an audit of USAID/El
              Salvador’s U101-reported account balances as of September 30, 2000. The audit
              was performed in accordance with generally accepted government auditing
              standards at USAID/El Salvador’s offices from October 16, 2000 through December
              18, 2000.

              The audit examined USAID/El Salvador’s fiscal year 2000 financial operations
              related to cash advances, accruals, and the 1221 reconciliation. It did not cover any
              other USAID/El Salvador financial operations.

              During the first phase of this audit, we obtained an understanding of the controls
              over the advance process, accrual process, and reconciliation process. We
              determined whether the controls were placed in operation, and we assessed
              control risk. The results of the assessment on internal controls are reported
              separately in Audit Report No. 1-519-01-001-F, “Audit of Certain USAID/El
              Salvador Financial Operations and Management Controls,” dated January 23, 2001.

              Methodology

              The audit objective was to determine if the account balances on USAID/El
              Salvador’s U101 reports were accurately presented in the areas of accruals,
              advances, and the 1221 reconciliation.

              In examining advances, we reviewed a stratified random sample of 30 current
              advances as of September 30, 2000 made by USAID/El Salvador. The population
              of all current advances over $1,500 as of September 30, 2000 and the sample of
              30 advances we reviewed are compared in the following table:

                        Population                                 Number       Amount
                                                                                (millions)
                        Advances of $100,000 or more               6            $5.3
                        Advances from $1,500 to $100,000           44           $1.1
                        Total                                      50           $6.4

                        Sample                                     Number       Amount
                                                                                (millions)
                        Advances of $100,000 or more               6            $5.3
                        Advances from $1,500 to $100,000           24           $.6
                        Total                                      30           $5.9

              For each sample item, we reviewed documentation and interviewed USAID/El
              Salvador personnel to verify that: (1) advances were included in the September


                                                                                                      6
                                                                        Appendix I

2000 U101 report and the disbursing office payment schedules, (2) recipients
refunded interest earned on advances to USAID, (3) requests for advance (Standard
Forms 1034) were maintained on file and payment amounts were equal to the
amounts reflected on the requests, and (4) financial information on the recipients’
requests for advances was consistent with the controller’s office advance
information.

We also selected a judgmental sample of 10 advances outstanding over 120 days
as of October 4, 2000. The ten sample items totaled $480,882 out of a universe of
17 items totaling $481,080. For each item, we reviewed documentation and
interviewed USAID/El Salvador personnel to determine (1) how long the
advances have been outstanding, (2) the reason that the advance was still
outstanding, (3) action taken by USAID/El Salvador to liquidate the advance, (4)
whether interest was adequately recorded for the advance.

In examining accruals, we reviewed a stratified random sample of 30 accruals
made for the fourth quarter of fiscal year 2000 by USAID/El Salvador. The
population of all fourth quarter fiscal year 2000 accruals over $1,500 and the
sample of 30 accruals we reviewed are compared in the following table:


         Population                                Number       Amount
                                                                (millions)
         Accruals of $500,000 or more              6            $10.7
         Accruals from $1,500 to $500,000          246          $12.5
         Total                                     252          $23.2

         Sample                                    Number       Amount
                                                                (millions)
         Accruals of $500,000 or more              6            $10.7
         Accruals from $1,500 to $500,000          24           $4.7
         Total                                     30           $15.4


For each accrual sample item, we determined (1) if the accrual amount was
included in the September 30, 2000 U101 report, the Batch Project Accrual
Transaction Listing (MACS Report P16), and the Accrual Transaction Register
(MACS Report C15); (2) if accruals were not in excess of the total unliquidated
commitment balance; (3) if the accruals were reversed at the beginning of the
subsequent quarter; and (4) if the accrual amount was reasonable based on the
guidance in ADS 631.

In addition, we selected a judgmental sample of 10 accruals made for the third
quarter of fiscal year 2000. To determine the accuracy of the accruals, we
compared the amount accrued to the amounts subsequently liquidated by the
recipient.


                                                                                      7
                                                                       Appendix I


For appropriations 72X1021 and 72X1037, we reviewed the Mission’s 1221
reconciliation of the disbursements reported in MACS with the disbursements
reported by the United States Disbursing Offices as of August 31, 2000, and we
calculated the number and absolute value of the unreconciled transactions as of
that date.

In performing the audit tests described above, we considered a finding material if
the number of errors was more than five percent of the total sample reviewed.




                                                                                     8
                                                                                    Appendix II



Management
Comments
                             AGENCY FOR INTERNATIONAL DEVELOPMENT
                            UNITED STATES A.I.D. MISSION TO EL SALVADOR



             Date:          February 12, 2001

             To:            Timothy E. Cox, Regional Inspector General/San Salvador

             From:          Kenneth C. Ellis, Mission Director USAID/EI Salvador

             Subject:       Audit of USAID/EI Salvador's U101- Reported Financial Data
                            as of September 30, 2000 (Report No. 1-519-01-003-F)

             USAID/EI Salvador has reviewed the report of this audit and concurs in the
             report's two recommendations:

             Recommendation No.1: We recommend that USAID/EI Salvador work with
             USAID/Panama and USAID/Mexico to establish written procedures for the
             accrual process, to include (a) the roles of the cognizant technical officer and the
             USAID/EI Salvador controller staff in the accrual process and (b) the requirement
             for maintaining adequate documentation for accruals.

             Recommendation No.2: We recommend that USAID/EI Salvador revise its
             written procedures for accruals to include the use of a control sheet to show the
             accrual calculation and include the source and basis of information.

             To implement Recommendation No.1 USAID/EI Salvador will work with
             USAID/Panama and USAID/Mexico to revise applicable Mission Orders based
             upon the accrual control and calculation procedures called for in this
             recommendation and in Recommendation No.2.

             In addition, the USAID/EI Salvador Controller will provide training to each
             Mission in the procedures necessary to develop and document accruals.

             To implement Recommendation No.2 USAID/EI Salvador will revise its Mission
             Order concerning accruals to include the use of a worksheet for calculation of the
             accruals and identification of the source and basis of information. The revised
             Mission Order and its accrual calculation worksheet will more clearly define
             responsibilities of the Cognizant Technical Officers and the Controller Staff
             regarding development documentation, review and recording of accruals.



                                                                                                 9
                                                                   Appendix II


USAID/EI Salvador appreciates the thoroughness of your analyses and the
practical recommendations for improvement of Mission activities contained in
this audit report.




                                                                               10
